           OFFICE OF
    THE INSPECTOR GENERAL

SOCIAL SECURITY ADMINISTRATION


     CONCURRENT TITLE II AND
             TITLE XVI
     BENEFICIARIES RECEIVING
          REPRESENTATIVE
   PAYEE AND DIRECT PAYMENTS

    April 2006   A-09-05-15144




 AUDIT REPORT
                                    Mission
We improve SSA programs and operations and protect them against fraud, waste,
and abuse by conducting independent and objective audits, evaluations, and
investigations. We provide timely, useful, and reliable information and advice to
Administration officials, the Congress, and the public.

                                   Authority
The Inspector General Act created independent audit and investigative units,
called the Office of Inspector General (OIG). The mission of the OIG, as spelled
out in the Act, is to:

   Conduct and supervise independent and objective audits and
    investigations relating to agency programs and operations.
   Promote economy, effectiveness, and efficiency within the agency.
   Prevent and detect fraud, waste, and abuse in agency programs and
    operations.
   Review and make recommendations regarding existing and proposed
    legislation and regulations relating to agency programs and operations.
   Keep the agency head and the Congress fully and currently informed of
    problems in agency programs and operations.

  To ensure objectivity, the IG Act empowers the IG with:

   Independence to determine what reviews to perform.
   Access to all information necessary for the reviews.
   Authority to publish findings and recommendations based on the reviews.

                                     Vision
By conducting independent and objective audits, investigations, and evaluations,
we are agents of positive change striving for continuous improvement in the
Social Security Administration's programs, operations, and management and in
our own office.
                                          SOCIAL SECURITY
MEMORANDUM

Date:   April 12, 2006                                                             Refer To:

To:     The Commissioner

From:   Inspector General

Subject: Concurrent Title II and Title XVI Beneficiaries Receiving Representative Payee and
        Direct Payments (A-09-05-15144)


        OBJECTIVE
        Our objective was to determine whether the Social Security Administration (SSA) had
        adequate controls to prevent the direct payment of concurrent benefits to individuals
        who had been appointed a representative payee.

        BACKGROUND
        SSA pays benefits under Titles II and XVI of the Social Security Act.1 Under Title II, the
        Old-Age, Survivors and Disability Insurance program provides benefits to retired and
        disabled workers, including their dependents and survivors. Under Title XVI, the
        Supplemental Security Income program provides payments to financially needy
        individuals who are aged, blind, or disabled.

        Some individuals cannot manage or direct the management of their finances because
        of their youth or mental and/or physical impairments. Congress granted SSA the
        authority to appoint representative payees to receive and manage these beneficiaries’
        payments.2 A representative payee may be an individual or an organization. SSA
        selects representative payees for Title II and XVI beneficiaries when representative
        payments would serve the individual’s interests. Representative payees are responsible
        for using benefits in the beneficiary’s best interests.3



        1
            42 USC §§ 402 et seq. and 1381 et seq.
        2
          We use the term “beneficiary” generically in this report to refer to both Old-Age, Survivors and Disability
        Insurance beneficiaries and Supplemental Security Income recipients.
        3
            See 42 USC §§ 405(j) and 1383(a); 20 CFR Chapt. 3 Part 404 Subpart U, and Part 416 Subpart F.
Page 2 - The Commissioner

Individuals who apply for Title XVI payments must apply for other program benefits,
including Title II benefits. Claimants must apply on their own Social Security number
(SSN) for Title II benefits as well as for dependent benefits, divorced spouse’s benefits,
and survivor’s benefits.4 Beneficiaries who require a representative payee should be
appointed one representative payee for all benefits to which he/she is entitled.5

There are approximately 750,000 individuals with representative payees who are
concurrently eligible for both Title II and Title XVI benefits.

RESULTS OF REVIEW

SSA needs to improve its controls to prevent the direct payment of concurrent benefits
to individuals who have been appointed a representative payee. Our review disclosed
that SSA field office staff did not always ascertain whether an individual was
concurrently entitled after determining they needed a representative payee.
Furthermore, we found the interface between SSA’s payment records had limitations
that prevented the detection of the conflicting payment methods.

As of April 2005, there were 11,399 concurrently entitled Title II and Title XVI
beneficiaries receiving both representative payee and direct payments. Projecting the
results of our review of 250 sample cases, we estimate the 11,399 beneficiaries
received $166 million in direct payments while the representative payees received
$175 million on behalf of the beneficiaries. This includes an estimated $49.7 million in
benefit payments that SSA sent to different addresses or bank accounts for
approximately 1,100 beneficiaries. Further, if SSA does not determine whether the
11,399 concurrent beneficiaries should be paid directly or through a representative
payee, we estimate that $81.8 million in additional benefit payments will be paid over
the next 12 months (see Appendix C).

Concurrent Payments Sent to Beneficiaries and Representative Payees

SSA policy6 states that adult beneficiaries are presumed capable of managing or
directing someone else to manage their benefits unless there is evidence to the
contrary. If doubts arise regarding a beneficiary’s ability to manage or direct the
management of their funds, SSA will determine their capability. In addition, legally
incompetent beneficiaries should be appointed a representative payee, as should




4
    SSA, POMS, SI 00510.005.B.1.
5
    SSA, POMS, GN 00502.183.B.4.
6
    SSA, POMS, GN 00502.010.
Page 3 - The Commissioner

children under age 18.7 When concurrently entitled beneficiaries are determined
incapable, one representative payee should be appointed to receive both benefits.8

To ensure SSA makes consistent representative payee determinations, there is an
interface between the Master Beneficiary (MBR) and Supplemental Security Records
(SSR) to identify discrepancies. The interface generates an alert if a newly entitled Title
II beneficiary requires a representative payee and he/she has been receiving Title XVI
payments directly. The interface also generates an alert when benefits to a Title II
beneficiary are suspended because he/she requires a representative payee, but the
beneficiary’s Title XVI payments were not suspended.

All of the 250 concurrently entitled beneficiaries in our sample were receiving 1 benefit
through a representative payee while the other payment was being made directly to the
beneficiary.9 The total amount paid to, and on behalf of, our sample beneficiaries was
$7,500,395. These payments were made over an average of 54 months. Projecting
our results to the population of 11,399 beneficiaries, we estimate SSA paid these
beneficiaries $341,988,077. The following chart includes the payments made to the
beneficiaries and their representative payees.

                                      Paid to
                                   Representative            Paid to
      Benefit Payments                 Payee               Beneficiary           Total Paid

      Amount Paid                        $3,858,794           $3,641,601            $7,500,395

      Estimate for Population         $175,945,613         $166,042,464           $341,988,077

We found that conflicting payee methods were established when a beneficiary already
receiving benefits from one program became entitled to benefits on the other program.
For example, a surviving child beneficiary entitled to Title II benefits since
November 1990 became entitled to Title XVI disability benefits in August 1994. At that
time, SSA appointed a representative payee to receive the Title XVI benefits on the
beneficiary’s behalf. However, the beneficiary continued to receive the Title II benefits
directly. Consequently, the beneficiary received direct payments of $6,556 while the
representative payee received $28,380 in the same period.

We also found that SSA failed to appoint representative payees for beneficiaries who
had been previously determined to be incapable of managing their own funds. For
example, a disabled beneficiary entitled to Title XVI since July 1974 was appointed a

7
    SSA, POMS, GN 00502.005.A and GN 00502.070.A.
8
    SSA, POMS, GN 00502.183.B.4.
9
 Although there were conflicting payment methods for all 250 cases, no payments were made to
6 beneficiaries and 5 representative payees in our audit period, which ended on April 1, 2005.
Page 4 - The Commissioner

representative payee in September 1990. However, SSA did not appoint a
representative payee for the beneficiary’s Title II disability benefits when he became
entitled in July 1992. As of April 1, 2005, the beneficiary had received $89,813 in direct
payments while the representative payee received $13,539 in payments.

Payments Sent to Different Addresses or Different Bank Accounts

SSA sent benefit payments for 25 of the 250 concurrently entitled beneficiaries in our
sample to different addresses or deposited payments into different bank accounts.10
The total amount of payments made to, and on behalf of, these beneficiaries totaled
almost $1.1 million. These payments were made over an average of 78 months. We
believe payments sent to different locations coupled with conflicting payee methods
may create an increased risk of fraud. Projecting our sample results to the population of
11,399 beneficiaries, we estimate SSA mailed to different addresses or deposited into
different bank accounts benefit payments totaling $49.7 million.


                                 Amounts Paid to Different
                               Addresses or Bank Accounts
                   Total Amount Paid                        $1,090,079
                   Estimate for Population                 $49,703,277

For example, in one case, SSA mailed the payments to two different cities that were
approximately 26 miles apart. The Title XVI payments were mailed to the beneficiary in
Canton, Mississippi, while the Title II benefits were mailed to the representative payee
in Jackson, Mississippi. Our review showed that, from August 1985 to April 2005, the
representative payee received $66,228 and the beneficiary received $46,890.

In another case, the payments were mailed to two different post office boxes. In this
case, SSA appointed a representative payee to a child who was receiving Title II
disability benefits in November 1987. The beneficiary became concurrently entitled to
Title XVI in January 1990. However, SSA did not appoint a representative payee to
receive the Title XVI payments. As of April 2005, the beneficiary had received direct
payments of $88,964 while the representative payee had received $15,927.

Over 30 Percent Had Conflicting Payment Methods for Longer Than 5 Years

Our analysis disclosed that 32 percent of the sample cases had conflicting payment
records for longer than 5 years. The following chart illustrates the number of cases paid
over several incremental time intervals and the percentage of cases paid during the
time intervals.


10
 Although there were different addresses or bank accounts for all 25 cases, in 1 case, no payments
were made within our audit period, which ended on April 1, 2005.
Page 5 - The Commissioner


                           Number of Cases by Time Interval
                          Years              Cases            Percent
               < 1 year                        70                28
               1 to 2 years                    38               15.2
               > 2 years to 5 years            62               24.8
               > 5 years                       80                32
               Total                          250               100

The longest period that SSA paid concurrent benefits to a representative payee and
beneficiary was over 31 years. In that case, SSA appointed a representative payee in
February 1969 to receive the beneficiary’s Title II benefits. In January 1974, the
beneficiary became eligible for Title XVI payments. However, SSA did not appoint a
representative payee to receive the Title XVI payments. Consequently, from
January 1974 to April 2005, the representative payee received $91,870 and the
beneficiary received $52,665 in direct payments.

SSA Did Not Always Know When Beneficiaries Were Concurrently Entitled

We found there were several reasons why the conflicting payee methods were
established and not detected. We found that, generally, SSA field office staff made
oversight errors during the representative payee process. Specifically, they did not
verify that beneficiaries were concurrently entitled when making representative payee
determinations.

Although field office oversight usually caused the conflicting payment methods,
limitations in the MBR/SSR interface prevented their detection. Generally, the interface
alert is only generated when Title II benefits are suspended because a beneficiary
needs a representative payee and the SSR does not show a representative payee
present.

Impact of Concurrent Benefits Paid to Representative Payees and Beneficiaries

SSA is responsible for determining whether beneficiaries are capable of managing their
own funds or directing someone else to manage their funds. Payments made to
representative payees for beneficiaries who are capable deprive the individuals of fiscal
independence and determining how their benefits are spent. Conversely, if SSA pays
incapable beneficiaries directly, their basic needs (food, clothing and shelter) may not
be met.

Furthermore, when SSA is unaware of the conflicting payee methods, not all benefit
payments, conserved funds, and other financial resources may be included in the
Page 6 - The Commissioner

annual Representative Payee Report. Representative payees are required to provide
SSA this Report to account for how they spent and conserved benefits.11 SSA requires
a single Representative Payee Report to account for all benefits paid to concurrently
entitled beneficiaries. SSA uses the Report to determine whether beneficiaries
exceeded the resource limit12 under Title XVI.

CONCLUSION AND RECOMMENDATIONS

We found that SSA needs to improve its controls to prevent concurrent Title II and XVI
beneficiaries from receiving representative payee and direct payments. We identified
11,399 concurrently entitled beneficiaries who received an estimated $166 million in
direct payments while representative payees received $175 million on behalf of these
beneficiaries. This included an estimated $49.7 million in benefit payments that SSA
sent to different addresses or bank accounts for approximately 1,100 beneficiaries. If
SSA does not determine whether the 11,399 concurrent beneficiaries should be paid
directly or through a representative payee, we estimate that additional benefit payments
totaling $81.8 million will be paid over the next 12 months (see Appendix C). Finally, we
provided SSA the 11,399 cases for it to take corrective actions.

We recommend that SSA:

1. Determine whether the 11,399 concurrent beneficiaries should have their benefits
   paid directly or through a representative payee.
2. Determine whether potential representative payee misuse exists for the
   approximately 1,100 cases where payments were sent to different addresses, P.O.
   Boxes, or bank accounts and, if so refer the cases to the Office of the Inspector
   General for possible criminal, civil and/or administrative remedies.
3. Develop a systems edit/alert to prevent and/or detect instances in which concurrent
   payments are made directly to a beneficiary and a representative payee.
4. Remind SSA technicians to verify whether beneficiaries are concurrently entitled
   when making representative payee determinations.




11
     SSA, POMS, GN 00605.001, A and B.1.
12
   Generally, Title XVI beneficiaries cannot have over $2,000 in resources; a married beneficiary is limited
to $3,000. If a beneficiary exceeds the resource limit, the individual is not eligible for SSI. SSA, POMS,
SI 01110.003, A.
Page 7 – The Commissioner

AGENCY COMMENTS
SSA agreed with our recommendations. See Appendix D for the full text of the
Agency’s comments.




                                             S
                                             Patrick P. O’Carroll, Jr.
                                     Appendices
APPENDIX A – Acronyms
APPENDIX B – Scope and Methodology
APPENDIX C – Sampling Methodology and Results
APPENDIX D – Agency Comments
APPENDIX E – OIG Contacts and Staff Acknowledgments
                                                      Appendix A

Acronyms
CFR     Code of Federal Regulations
MBR     Master Beneficiary Record
OASDI   Old-Age, Survivors and Disability Insurance
OIG     Office of the Inspector General
POMS    Program Operations Manual System
SSA     Social Security Administration
SSN     Social Security Number
SSR     Supplemental Security Record
                                                                      Appendix B

Scope and Methodology
We obtained an extract from the Master Beneficiary (MBR) and Supplemental Security
Records (SSR) of concurrently entitled beneficiaries receiving both representative
payee and direct payments. We identified 11,399 concurrent beneficiaries who had
conflicting payment methods as of April 1, 2005. From this population, we randomly
selected a sample of 250 beneficiaries for review.

To accomplish our objective, we

•   reviewed the applicable sections of the Social Security Act (Act), U.S. Code, and the
    Social Security Administration’s (SSA) Program Operations Manual System;

•   interviewed SSA employees from the San Francisco Regional Office, Western
    Program Service Center and Office of Income Security Programs;

•   extracted a random sample of 250 concurrent beneficiaries and obtained queries
    from SSA’s MBR, SSR, and Retirement Survivors and Disability Insurance Payment
    History, as well as the Representative Payee System.

We determined whether the computer-processed data from the MBR and SSR systems
were sufficiently reliable for our intended use. We conducted tests to determine the
completeness and accuracy of the data. These tests allowed us to assess the reliability
of the data and achieve our audit objectives.

We evaluated the adequacy of SSA’s controls to prevent the direct payment of
concurrent benefits to individuals who have been appointed a representative payee.
Specifically, we determined whether the interface between the MBR and SSR identified
situations in which benefit payments SSA paid both directly and to representative
payees for concurrently entitled beneficiaries. The amounts reported represent the total
benefit payments made to and on behalf of the concurrent beneficiaries through the
date that we obtained our data extract (April 1, 2005).

We performed audit work in Richmond, California, between April and December 2005.
The entity audited was SSA’s Office of Income Security Programs under the Deputy
Commissioner for Disability and Income Security Programs. We conducted our audit in
accordance with generally accepted government auditing standards.
                                                                      Appendix C

Sampling Methodology and Results
On April 1, 2005, we obtained a data extract from the Social Security Administration’s
(SSA) Master Beneficiary (MBR) and Supplemental Security Records (SSR) of
concurrent beneficiaries with conflicting payment methods. The concurrent
beneficiaries were all in current pay status receiving both representative payee and
direct payments.

We randomly selected 250 concurrently entitled beneficiaries for review. For each
sample item, we verified that the conflicting payment methods existed and computed
the amounts paid to, and on behalf of, the beneficiaries during this period. We also
computed benefit payments mailed to different addresses or deposited into different
bank accounts for the sample beneficiaries.

Of the 250 concurrently entitled beneficiaries in our sample, we found that each
beneficiary was receiving one benefit through a representative payee while the other
was being paid directly to the beneficiary. However, some of these beneficiaries did not
receive payments within our audit period, which ended April 1, 2005. Therefore, our
statistical projections are based on the approximate $3.6 million paid directly to 244 of
the sample beneficiaries and the approximate $3.8 million paid to 245 of our sample
representative payees on their behalf. In addition, we found that benefit payments for
25 of our sample beneficiaries were mailed to different addresses or deposited to
different bank accounts. However, in one case no payments were made within our
audit period. Accordingly, our statistical projection is based on the approximately
$1.1 million in payments made to and on behalf of 24 of our sample beneficiaries.

Projecting these results to our population of 11,399 concurrently entitled beneficiaries,
we estimate SSA paid $166 million in direct payments while their representative payees
received $175 million. Further, if SSA does not resolve whether the 11,399 concurrent
beneficiaries should be paid directly or through a representative payee, we estimate that
additional benefit payments totaling $81.8 million will be paid over the next 12 months.
In addition, we estimate that SSA mailed to different addresses or deposited into
different bank accounts benefit payments totaling $49.7 million. The following tables
provide the details of our sample results and statistical projections.




                                           C-1
Table 1 – Conflicting Payment Methods

       Description                      Direct Payments                Representative Payee
Sample Results                               $3,641,601                       $3,858,794
Point Estimate                            $166,042,464                      $175,945,613
 Lower Limit                              $142,532,306                      $152,796,910
 Upper Limit                              $189,552,623                      $199,094,315

All statistical projections are at the 90-percent confidence level.


Table 2 – Different Addresses or Bank Accounts

       Description                     Number of Cases                   Benefit Payments
Sample Results                                 24                              $1,090,079
Point Estimate                              1,094                            $49,703,277
 Lower Limit                                  768                            $27,790,483
 Upper Limit                                1,504                            $71,616,070

All statistical projections are at the 90-percent confidence level.


Table 3 – 12-Month Estimate for Conflicting Payment Methods1
                                                         Representative Payee
           Description               Direct Payments          Payments
Point Estimate                            $3,093,412           $3,727,353
 Lower Limit                              $2,864,497           $3,507,579
 Upper Limit                              $3,322,327           $3,947,128
Annual Estimate (Population)            $37,120,944           $44,728,236

All statistical projections are at the 90-percent confidence level.




1
 Our estimates were based on the monthly benefit amounts paid to our sample cases during
March 2005.


                                                C-2
                  Appendix D

Agency Comments
                                         SOCIAL SECURITY

MEMORANDUM


Date:      March 30, 2006                                                       Refer To: S1J-3

To:         Patrick P. O'Carroll, Jr.
            Inspector General

From:       Larry W. Dye         /s/
            Chief of Staff

Subject:    Office of the Inspector General (OIG) Draft Report, "Concurrent Title II and Title XVI
            Beneficiaries Receiving Representative Payee and Direct Payments" (A-09-05-15144) –
            INFORMATION


           We appreciate OIG’s efforts in conducting this review. Our comments on the draft report content
           and recommendations are attached.

           Please let me know if we can be of further assistance. Staff inquiries may be directed to
           Ms. Candace Skurnik, Director, Audit Management and Liaison Staff, on extension 54636.

           Attachment:
           SSA Response




                                                        D-1
COMMENTS ON THE OFFICE OF INSPECTOR GENERAL (OIG) DRAFT REPORT,
“CONCURRENT TITLE II AND TITLE XVI BENEFICIARIES RECEIVING
REPRESENTATIVE PAYEE AND DIRECT PAYMENTS”
(A-09-05-15144)

Thank you for the opportunity to review and comment on the draft report. We appreciate your
conducting this audit of concurrent Title II and Title XVI beneficiaries receiving representative
payee (Rep Payee) and direct payments.

Recommendation 1

SSA should determine whether the 11,399 concurrent beneficiaries should have their benefits
paid directly or through a Rep Payee.

Comment

We agree. However, due to the age of OIG's data, we will perform a new match between the
Master Beneficiary Record (MBR) and the Social Security Record (SSR) systems to identify
cases currently having these conditions. We anticipate completing the match, establishing a
control mechanism for this workload, and issuing processing instructions to field office (FO)
personnel by June 2006.

Recommendation 2

SSA should determine whether potential Rep Payee misuse exists for the approximately 1,100
cases where payments were sent to different addresses, P.O. Boxes, or bank accounts and, if so,
refer the cases to OIG for possible criminal, civil and/or administrative remedies.

Comment

We agree with the intent of this recommendation and as part of the instructions described in
response to recommendation one, we will advise FO personnel to pay special attention to cases
having different addresses. When appropriate, we will determine if a misuse investigation is
warranted. We will remind FO personnel that any time misuse exists, the case must be referred
to OIG for consideration of possible criminal, civil and/or administrative remedies.

Recommendation 3

SSA should develop a systems edit/alert to prevent and/or detect instances in which concurrent
payments are made directly to a beneficiary and a Rep Payee.




                                               D-2
Comment

We agree. The Agency is currently developing a process within the Representative Payee
System (RPS) that will prevent the selection of different payees for concurrent entitlements.
Implementation is expected September 30, 2006. However, the report should clarify that the
cases OIG identified were instances in which the FO personnel did not enter the payee
information into RPS. The changes we are making in the RPS cannot identify these
discrepancies; they would have to be identified via the type of match described in the response to
the first recommendation. We are currently evaluating the value and feasibility of conducting
periodic matches between the MBR and the SSR to find and resolve any future cases of this
type.

Recommendation 4

SSA should remind technicians to verify whether beneficiaries are concurrently entitled when
making Rep Payee determinations.

Comment

We agree. Implementing this recommendation would improve SSA’s efficiency in detecting and
preventing concurrent payments to Rep Payees and beneficiaries. We will issue a reminder in
the processing instructions scheduled for release by June 2006.




                                               D-3
                                                                      Appendix E

OIG Contacts and Staff Acknowledgments
OIG Contacts

   James J. Klein, Director, San Francisco Audit Division, (510) 970-1739

   Joe Robleto, Audit Manager, (510) 970-1737


Acknowledgments

In addition to those named above:

   Daniel L. Hoy, Auditor

   Brennan Kraje, Statistician

   Kimberly Beauchamp, Writer-Editor

For additional copies of this report, please visit our web site at
www.socialsecurity.gov/oig or contact the Office of the Inspector General’s Public
Affairs Specialist at (410) 965-3218. Refer to Common Identification Number
A-09-05-15144.
                           DISTRIBUTION SCHEDULE

Commissioner of Social Security
Office of Management and Budget, Income Maintenance Branch
Chairman and Ranking Member, Committee on Ways and Means
Chief of Staff, Committee on Ways and Means
Chairman and Ranking Minority Member, Subcommittee on Social Security
Majority and Minority Staff Director, Subcommittee on Social Security
Chairman and Ranking Minority Member, Subcommittee on Human Resources
Chairman and Ranking Minority Member, Committee on Budget, House of
Representatives
Chairman and Ranking Minority Member, Committee on Government Reform and
Oversight
Chairman and Ranking Minority Member, Committee on Governmental Affairs
Chairman and Ranking Minority Member, Committee on Appropriations, House of
Representatives
Chairman and Ranking Minority, Subcommittee on Labor, Health and Human Services,
Education and Related Agencies, Committee on Appropriations,
 House of Representatives
Chairman and Ranking Minority Member, Committee on Appropriations, U.S. Senate
Chairman and Ranking Minority Member, Subcommittee on Labor, Health and Human
Services, Education and Related Agencies, Committee on Appropriations, U.S. Senate
Chairman and Ranking Minority Member, Committee on Finance
Chairman and Ranking Minority Member, Subcommittee on Social Security and Family
Policy
Chairman and Ranking Minority Member, Senate Special Committee on Aging
Social Security Advisory Board
               Overview of the Office of the Inspector General
The Office of the Inspector General (OIG) is comprised of our Office of Investigations (OI),
Office of Audit (OA), Office of the Chief Counsel to the Inspector General (OCCIG), and Office
of Resource Management (ORM). To ensure compliance with policies and procedures, internal
controls, and professional standards, we also have a comprehensive Professional Responsibility
and Quality Assurance program.
                                        Office of Audit
OA conducts and/or supervises financial and performance audits of the Social Security
Administration’s (SSA) programs and operations and makes recommendations to ensure
program objectives are achieved effectively and efficiently. Financial audits assess whether
SSA’s financial statements fairly present SSA’s financial position, results of operations, and cash
flow. Performance audits review the economy, efficiency, and effectiveness of SSA’s programs
and operations. OA also conducts short-term management and program evaluations and projects
on issues of concern to SSA, Congress, and the general public.


                                    Office of Investigations
OI conducts and coordinates investigative activity related to fraud, waste, abuse, and
mismanagement in SSA programs and operations. This includes wrongdoing by applicants,
beneficiaries, contractors, third parties, or SSA employees performing their official duties. This
office serves as OIG liaison to the Department of Justice on all matters relating to the
investigations of SSA programs and personnel. OI also conducts joint investigations with other
Federal, State, and local law enforcement agencies.


                  Office of the Chief Counsel to the Inspector General
OCCIG provides independent legal advice and counsel to the IG on various matters, including
statutes, regulations, legislation, and policy directives. OCCIG also advises the IG on
investigative procedures and techniques, as well as on legal implications and conclusions to be
drawn from audit and investigative material. Finally, OCCIG administers the Civil Monetary
Penalty program.
                              Office of Resource Management
ORM supports OIG by providing information resource management and systems security. ORM
also coordinates OIG’s budget, procurement, telecommunications, facilities, and human
resources. In addition, ORM is the focal point for OIG’s strategic planning function and the
development and implementation of performance measures required by the Government
Performance and Results Act of 1993.
